No. 19-569 (CAPITAL CASE)
INTHE

~upreme ~ourt of tbe mniteb ~tates
CARLOS MANDEL AYESTAS,

V.

Petitioner,

LORIE DAVIS, DIRECTOR, TExAS DEPARTMENT OF
CRIMINAL JUSTICE (INSTITUTIONAL DIVISION),

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF SERVICE

I, Deanna M. Rice, a member of the bar of this Court, hereby certify that, on
this 28th day of January, 2020, all parties required by the Rules of this Court to be
served have been served. Three copies of the Reply Brief for Petitioner in the abovecaptioned case were sent via FedEx to the following counsel of record:
Kyle Douglas Hawkins

TEXAS A'ITORNEY GENERAL'S OFFICE

P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
kyle.hawkins@oag.texas.gov

Counsel of Record for Respondent
I also certify that an electronic version of the aforementioned document was

transmitted by e-mail to counsel at the e-~ :u cr.:ove.
Deanna M. Rice

